                                              NATIONAL SCIENCE FOUNDATION
                                               OFFICE OF INSPECTOR GENERAL
                                                 OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: A13050064                                                               Page 1 of 1



               NSF OIG reviewed an allegation of plagiarism in an NSF Proposa1. 1 We found only des
         minimis plagiarism. Accordingly, this case is closed with no further action taken.




NSF OIG Form 2 (11/02)
